TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Information Technology: Improvements Are
                  Needed to Successfully Plan and Deliver
                    the New Taxpayer Advocate Service
                            Integrated System



                                     September 30, 2014

                             Reference Number: 2014-20-071




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                  HIGHLIGHTS


INFORMATION TECHNOLOGY:                              as designed and to meet the December 2014
IMPROVEMENTS ARE NEEDED TO                           deployment milestone. However, development
SUCCESSFULLY PLAN AND DELIVER                        activities for the TASIS Project are currently on
THE NEW TAXPAYER ADVOCATE                            hold, and funding issues and unforeseen
                                                     problems with the new system are being
SERVICE INTEGRATED SYSTEM
                                                     evaluated. TIGTA identified the following areas
                                                     that need improvements:
Highlights                                              Requirements management practices were
                                                         not sufficient to successfully develop the
Final Report issued on                                   TASIS.
September 30, 2014                                      Risk management controls were not
                                                         followed to manage TASIS systems
Highlights of Reference Number: 2014-20-071              development risks.
to the Internal Revenue Service Chief
Technology Officer and National Taxpayer                Critical roles and responsibilities were not
Advocate.                                                established or clearly communicated.

IMPACT ON TAXPAYERS                                     System requirements have not yet been
                                                         sufficiently verified.
The Taxpayer Advocate Service’s (TAS) mission
is to help taxpayers resolve problems with the       WHAT TIGTA RECOMMENDED
IRS. The current automated tools that TAS
                                                     TIGTA made five recommendations to the IRS
employees rely on are obsolete, and the multiple
                                                     Chief Technology Officer and the National
technology platforms in place are costly and
                                                     Taxpayer Advocate. In management’s response
ineffective. Successful development and
                                                     to the report, the IRS agreed with four of our
implementation of the planned Taxpayer
                                                     recommendations and plans to implement
Advocate Service Information System (TASIS)
                                                     corrective actions.
would enable the National Taxpayer Advocate
and the estimated 1,000 case advocates to            The IRS disagreed with our recommendation to
better address taxpayers’ needs on a range of        verify that Entellitrak® functionality is sufficient to
requests for assistance. Initial functionality for   meet requirements and ensure that TAS
the TASIS includes improved capabilities for         business needs will be met with the planned
managing and documenting case advocacy               system. TIGTA maintains that the IRS needs to
activities that support taxpayer requests for TAS    consider a more complete set of system
assistance.                                          requirements for TASIS case management
                                                     functions to map to Entellitrak as part of its
WHY TIGTA DID THE AUDIT                              ongoing project management processes.
The overall audit objective was to determine
whether the IRS is adequately mitigating
systems development risks for the TASIS
Project to achieve business and information
technology goals.
WHAT TIGTA FOUND
Following persistent delays and concerns with
the initial TASIS Project, the IRS began
redirecting the development effort in
January 2014. Specifically, the IRS initiated a
process called a Customer Technical Review to
help validate whether the current approach for
the TASIS could provide necessary functionality
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                NATIONAL TAXPAYER ADVOCATE


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Information Technology: Improvements Are
                             Needed to Successfully Plan and Deliver the New Taxpayer Advocate
                             Service Integrated System (Audit # 201420014)

 This report presents the results of our review of the Taxpayer Advocate Service Integrated
 System Project. The overall objective of this review was to determine whether the Internal
 Revenue Service (IRS) is adequately mitigating systems development risks for the Taxpayer
 Advocate Service Integrated System Project to achieve business and information technology
 goals. This audit is included in our Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenges of Modernization, Taxpayer Protection and Rights, and Security for
 Taxpayer Data and IRS Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Danny Verneuille, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                           Information Technology: Improvements Are Needed to
                          Successfully Plan and Deliver the New Taxpayer Advocate
                                          Service Integrated System




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          The Internal Revenue Service Has Initiated Efforts to Redirect
          the Taxpayer Advocate Service Integrated System Project .......................... Page 3
          Requirements Management Practices Were Not Sufficient to
          Successfully Deliver Initial Case Management Functionality ...................... Page 5
                    Recommendation 1:........................................................ Page 7

          Risk Management Controls Were Not Followed to Manage Systems
          Development Risks ....................................................................................... Page 7
                    Recommendation 2: ....................................................... Page 8

                    Recommendation 3:........................................................ Page 9

          Critical Roles and Responsibilities Were Not Established or Clearly
          Communicated .............................................................................................. Page 9
                    Recommendation 4:........................................................ Page 10

          System Requirements Have Not Yet Been Sufficiently Verified to
          Ensure That Taxpayer Advocate Service Business Needs Will Be Met
          With the Selected Commercial Off-the-Shelf Product ................................. Page 10
                    Recommendation 5:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Taxpayer Advocate Service Integrated System
          Development Activities and Timeline .......................................................... Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 17
         Information Technology: Improvements Are Needed to
        Successfully Plan and Deliver the New Taxpayer Advocate
                        Service Integrated System




                     Abbreviations

COTS           Commercial Off-the-Shelf
CTR            Customer Technical Review
ELC            Enterprise Life Cycle
IRM            Internal Revenue Manual
IRS            Internal Revenue Service
IT             Information Technology
TAS            Taxpayer Advocate Service
TASIS          Taxpayer Advocate Service Integrated System
                    Information Technology: Improvements Are Needed to
                   Successfully Plan and Deliver the New Taxpayer Advocate
                                   Service Integrated System




                                      Background

The Taxpayer Advocate Service (TAS) statutory mission as defined in Internal Revenue Code
Section 7803(c) is comprised of four principal activities to:
      Assist taxpayers in resolving problems with the Internal Revenue Service (IRS).
      Identify areas in which taxpayers have problems in dealings with the IRS.
      To the extent possible, propose changes in the administrative practices of the IRS to
       mitigate problems.
      Identify potential legislative changes which may be appropriate to mitigate such
       problems.
The TAS has also developed strategic goals and foundations to guide its leadership. The three
strategic goals are to: 1) resolve taxpayer problems accurately and timely; 2) protect taxpayer
rights and reduce taxpayer burden; and 3) become a known Taxpayer Advocacy Organization.
The Taxpayer Advocate Service Integrated System (TASIS) strategic foundations include
enhancing TAS infrastructure to improve taxpayer interaction, and sustaining and supporting a
fully engaged and diverse workforce.
The TASIS is an important undertaking in the IRS’s efforts to bring the tax advocacy systems
into the 21st century. The current systems supporting the TAS have not kept pace with rapid
innovations in technology and the explosion of online interaction capabilities for TAS employees
and their customers. The number of electronic avenues TAS employees have to communicate
and collaborate with other IRS employees and taxpayers requesting their assistance is restricted.
The primary system for tracking cases that are managed by the TAS is described as obsolete.
Multiple technology platforms also require excess maintenance efforts, upgrades, and general
administration resources.
Drivers for a new TAS system also include management’s need for an improved integrated
system to better support TAS employees and the taxpayers that they assist. Linking all TAS
applications within a single integrated system has been part of the TAS’s plans for more than a
decade. Successful development and implementation of the planned TASIS would enable the
National Taxpayer Advocate and the estimated 1,000 case advocates to better address taxpayers’
needs on a range of requests for assistance. The IRS’s Information Technology (IT) organization
and the TAS have separate missions with their own distinct roles and responsibilities related to
systems development. According to the TASIS Project Management Plan dated January 2013,
the IT organization Project Manager responsibilities include planning project activities;
delivering the project scope within cost and scheduled target dates; and tracking, monitoring, and
reporting risks. The TAS is identified as the customer responsible for interfacing with the
                                                                                           Page 1
                       Information Technology: Improvements Are Needed to
                      Successfully Plan and Deliver the New Taxpayer Advocate
                                      Service Integrated System



project team. Our review focused on the first release of the TASIS Project, which included
designing, managing, and documenting TAS case advocacy functionality including new
integrated case management capabilities. Appendix IV provides additional information on
activities and milestones1 for the TASIS Project.
This review was performed at the IRS National Headquarters and the National Taxpayer
Advocate office in Washington, D.C., and the IRS IT organization and TASIS Program
Management Office in New Carrollton, Maryland, during the period November 2013 through
May 2014. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
 A milestone is an investment management decision point placed at a natural breakpoint in the life cycle, which
allows the project to proceed to the next phase.
                                                                                                           Page 2
                       Information Technology: Improvements Are Needed to
                      Successfully Plan and Deliver the New Taxpayer Advocate
                                      Service Integrated System




                                      Results of Review

The Internal Revenue Service Has Initiated Efforts to Redirect the
Taxpayer Advocate Service Integrated System Project
Department of the Treasury procedures for information technology strategic planning and
portfolio management2 require effective planning and execution of development activities and
the use of a standardized systems development life cycle methodology. The IRS relies on its
Enterprise Life Cycle (ELC) methodology to guide systems development activities. The ELC
Framework focuses on designing and implementing technologies that meet business objectives,
and it supports multiple paths including Waterfall and Commercial Off-the-Shelf (COTS)
methods.3 Initially, the IRS selected the ELC Waterfall path for TASIS systems development;
however, the project was later refocused under a COTS path within the ELC Framework.
During Calendar Year 2008, the TAS took action to begin redesigning its existing systems to
efficiently and effectively advocate for taxpayers. In June 2010, the TAS initiated a
collaborative effort with the IRS IT organization4 to develop a long-range strategy to modernize
and consolidate the TAS’s systems. In June 2012, the TASIS was redirected under a COTS ELC
path. In that time frame, the TASIS Business System Concept Report stated that the system was
to be delivered in multiple releases to provide usable functionality incrementally. Each release
needed to build on the previous deliverable, until all required functionality has been delivered.
According to the report, TASIS requirements were considered too vast for a single release
without exceeding a designated 18- to 24-month window for deliverables. Specific TASIS
capabilities expected for Release 1 were focused on case management functionality and
included:
       Database Integration that provides consolidation of TAS systems to gain efficiencies in
        data management and systems operation.
       Work Management that provides tools to support work distribution and tracking.
       Resources Management capability to assign work quickly to employees with the
        necessary skill sets and workload capacity.



2
  Department of the Treasury, Procedures for Strategic Planning and Portfolio Management (Feb. 2011).
3
  Pre-packaged computer software for a particular purpose or application developed by a vendor for sell to numerous
companies and organizations or a standard technical infrastructure component.
4
  In June 2010, the IRS IT organization was known as Modernization and Information Technology Services
organization.
                                                                                                           Page 3
                        Information Technology: Improvements Are Needed to
                       Successfully Plan and Deliver the New Taxpayer Advocate
                                       Service Integrated System



        Data Management that leverages new standard tools to improve usability of data and
         reduce repeated storage or transcription.
        Document Management that provides document handling to support a geographically
         diverse workforce, improves document security and control, optimizes workflow, and
         manages document retention and archival requirements.
        Records Management that improves the TASIS’s ability to comply with records retention
         standards.
        Measurement and Evaluation that provides tools and data elements to support the ability
         to measure program quality and effectiveness.
        Communication that supports delivery of communications such as guidance,
         announcements, reports, and testimony to TAS and IRS employees, taxpayers,
         practitioners, Congress, and other stakeholders.
Following multiple delays and escalating management concerns with the early development
efforts for the TASIS Project, the IRS initiated activities to redirect the project in January 2014.
Our review considered the activities completed during this time frame with a Customer
Technical Review (CTR) that was completed for the TASIS. We also assessed key requirements
management and risk mitigation controls for the TASIS Project and found that improvements are
needed.

The IT organization performed a CTR of the TASIS
The purpose of the TASIS CTR was to review select artifacts5 produced by the project and to
verify the design. The IRS appointed an executive to facilitate the TASIS CTR process which
involved the IT organization, the TAS, and the TASIS contractor. This rigorous review for
TASIS Release 1 capabilities was intended to demonstrate the user experience and to assist the
TAS, as the business process owner, with approval decisions for key artifacts. This process
focused on ensuring stakeholder feedback, identifying weaknesses, resolving issues, and
initiating corrective actions. Specifically, the CTR was initiated to resolve TAS management
concerns before the planned December 2014 deployment date for Release 1 of the TASIS.
The overall CTR process was focused on developing and implementing an action plan for
resolving recognized TASIS systems development issues. The new requirements management
expert joined the IT organization in January 2014 to lead CTR activities and to redirect the
project.


5
  An artifact is the output of an activity performed in a process or procedure. Artifacts are created throughout the
life cycle of a project and can support either project management or the information technology technical solution,
such as the design.

                                                                                                              Page 4
                        Information Technology: Improvements Are Needed to
                       Successfully Plan and Deliver the New Taxpayer Advocate
                                       Service Integrated System



The IT organization added requirements management support
In order to improve and stabilize system requirements, the IT organization added a subject matter
expert to the TASIS Project who was knowledgeable in IRS requirements management
processes. Following the CTR process, staff were also transferred to the project from the
Requirements Engineering Program Office. The IRS has also acquired supplemental contract
services to assist with clarifying and stabilizing TASIS system requirements. The overall goal of
these actions was to develop a high-level Fiscal Year 2015 systems development plan for the
TASIS, which was expected to be completed by September 2014. However, on March 28, 2014,
the TAS advised the Treasury Inspector General for Tax Administration that all systems
development for the TASIS was placed on hold due to funding issues. Under these conditions,
the IRS has not yet demonstrated a viable corrective action plan to effectively redirect the TASIS
Project and meet the planned December 2014 deployment date for Release 1.

The IT organization added risk management support
In January 2014, in order to improve and mitigate risks for the TASIS Project, the IT
organization also supplemented the team by adding a subject matter expert who was
knowledgeable in risk management processes. This information technology expert assisted the
TASIS Project in outlining the necessary steps to review, evaluate, and correct risks captured in
the Item Tracking, Reporting, and Control System, the official risk repository.6

Requirements Management Practices Were Not Sufficient to
Successfully Deliver Initial Case Management Functionality
Although the TASIS Project has recently initiated targeted efforts to improve systems
development activities, consistent and reliable practices were not in place in key areas including:
requirements management; risk mitigation; key roles, responsibilities, and resources; and
sufficient business requirements to guide initial systems development activities.
According to Internal Revenue Manual (IRM) 2.16.1, requirements management is the process
by which requirements of all types are defined, managed, and formalized. In addition, the
Requirements Engineering Program Office Requirements Handbook states that the
functional baseline is the initial specifications established at the ELC Domain Architecture Phase
(Milestone 2).7



6
  Internal Revenue Manual 2.16.1, Enterprise Life Cycle Guidance (Apr. 2012).
7
  IRM 2.16.1, Enterprise Life Cycle Guidance (Apr. 2012), states that the Business Solution Architecture Stage is
the second of two stages in the Domain Architecture Phase (Milestone 2). This stage requires specification of a
complete set of business system requirements in conjunction with a set of detailed models that depict design of the
future business system from all solution perspectives.
                                                                                                             Page 5
                        Information Technology: Improvements Are Needed to
                       Successfully Plan and Deliver the New Taxpayer Advocate
                                       Service Integrated System



In November 2011, TASIS requirements were baselined8 and approved after the Milestone 2
exit. However, as of April 2014, after 37 months and approximately $10.76 million in
expenditures for this critical systems development effort, the necessary requirements still are not
clarified or stabilized sufficiently to ensure that TAS operational needs will be met under the
COTS path that was charted for the TASIS. Further, the initial systems development process for
the TASIS did not include all stakeholders to consider management priorities at key decision
points.
Major decisions points that occurred from June 2012 through March 2014 affected the project
and resulted in increased costs and multiple delays. Figure 1 lists these major events.
                     Figure 1: Major Decision Points Affecting the TASIS

          Date                                                      Event
    June 2012             The ELC path for the TASIS was switched from Waterfall to COTS.

    October 2012 –        The IT organization conducted numerous requirements clarification sessions with
    Summer 2013           the TAS.
    July 2013             During the TASIS Executive Steering Committee meeting, the following items
                          were discussed as affecting the project schedule by 65 business days: 1) adoption
                          of new technology and revised schedule resulting in a delivery date change,
                          2) impact from the Detroit power shutdown, 3) sequestration, and 4) additional
                          time requested by the Enterprise System Testing organization for Systems
                          Acceptance testing.
    October –             The IRS introduced a new software version for Windows, which prevented the
    December 2013         TASIS Project from accessing the IRS’s standard tool for risk management.  
    January 2014          The CTR was performed that enabled the IRS to establish an action plan for
                          resolving items identified during the review.
    March 2014            The IT organization is under a funding pause. Systems development activities are
                          currently limited, and it is unclear when the TASIS will be deployed.
Source: Treasury Inspector General for Tax Administration analysis of TASIS documentation.

Our review found that various IRS stakeholders with shared responsibilities and interests for this
important new system were not sufficiently guided by a coordinated team approach to ensure
successful systems development for the TASIS. Specifically, we identified the following
conditions:




8
 Baselining is a specification or product that has been formally reviewed and agreed on and thereafter serves as a
basis for further development. It is changed only through formal change procedures.
                                                                                                             Page 6
                    Information Technology: Improvements Are Needed to
                   Successfully Plan and Deliver the New Taxpayer Advocate
                                   Service Integrated System



      The IT organization made major decisions for the TASIS Project without sufficient
       consultation with the TAS, such as the selection of Entellitrak® as the COTS package
       and identification of project risks.
      The project was negatively affected by staff turnover, a lack of knowledge transfer,
       limited information technology management expertise, and an ineffective working
       relationship between the TAS and the IT organization.
Further, effective requirements management is a crucial risk mitigation control for establishing
and meeting both program and user expectations and for providing a basis for management’s
acceptance of a new system. If system requirements are not adequately clarified and stabilized,
key development activities are often jeopardized. Due to insufficient project management
resulting from these two conditions, the TASIS Project was repeatedly delayed. As a result,
important business requirements have not yet been adequately addressed. Continued delays for
planned TASIS capabilities could also affect taxpayers who rely on TAS services.

Recommendation
Recommendation 1: The Chief Technology Officer and the National Taxpayer Advocate
should develop a complete set of system requirements that are sufficient to guide the TASIS
Project in accordance with established guidelines.
       Management Response: The IRS agreed with this recommendation. The IRS stated
       that the IT organization, the Applications Development organization, and the TAS have
       created a TASIS Requirements Tiger Team, which has been tasked with developing and
       documenting a complete set of systems requirements.

Risk Management Controls Were Not Followed to Manage Systems
Development Risks
IRM 2.16.1 also defines risk management as the process of identifying, monitoring, and
mitigating project and program risks. This guidance establishes the Item Tracking, Reporting,
and Control System as the IT organization’s Enterprise Risk Tracking database for all projects
guided by the ELC Framework, including the COTS systems development path.
However, the TASIS Project did not consistently follow this established risk management
process to identify, monitor, and mitigate significant risks during the TASIS’s systems
development since the project’s Milestone 2 exit point in June 2012. Specifically, we identified
the following conditions:




                                                                                           Page 7
                       Information Technology: Improvements Are Needed to
                      Successfully Plan and Deliver the New Taxpayer Advocate
                                      Service Integrated System



       The TASIS Project did not develop a project-specific risk management plan9 to identify,
        monitor, and mitigate risks. IT organization officials stated that the TASIS Project
        followed the Internal Management Domain Risk Management Plan, which addresses
        risks at a high level and does not provide specific procedures to mitigate system-specific
        risks.
       The TASIS Review Board Charter states that the Risk Review Board establishes a
        framework and process for ensuring that TASIS Project issues and risks are appropriately
        assigned, escalated as required, and completed and/or resolved in a timely manner.
        However, the TASIS Risk Review Board was not established until 37 months after the
        June 2010 start date and following concerns that risks for the system were not being
        addressed. During our audit, IT organization officials for the TASIS acknowledged that
        risk management processes needed improvement to ensure the consistent and timely
        resolution of TASIS risks. The IRS also informed us that the TASIS Project was
        hindered due to a high level of staff turnover, a lack of knowledge transfer, and limited IT
        organization staff.
       The TASIS Project did not consistently capture and monitor all risks through the required
        Item Tracking, Reporting, and Control System. IT organization officials stated that while
        the TASIS Project did use the Item Tracking, Reporting, and Control System, it also
        relied on separate SharePoint and Excel spreadsheets to capture and track risks.
Further, our review found that the TASIS Project was funded through the annual Out-of-Cycle
proposal funding process,10 which was contingent on year-to-year availability of funds and
changes in priorities. As a result, the TASIS Project has been jeopardized during this time of
heighten fiscal constraints.11 Continued delays in system delivery to address TAS business needs
for an integrated system that will support more than 1,000 TAS employees could also affect
taxpayers who rely on TAS services.

Recommendations
The Chief Financial Officer, Chief Technology Officer, and National Taxpayer Advocate should:
Recommendation 2: Prepare a multiyear budget request and detailed business case to
stabilize the funding for the system development activities for the TASIS.


9
  IRM 2.16.1, Enterprise Life Cycle Guidance (Apr. 2012), states the Project Management Plan is a requirement for
projects and is a key project planning document. The Project Management Plan consists of several subsidiary plans,
such as the risk management plan.
10
   An Out-of Cycle proposal is a current year business priority request for Development, Modernization, or
Enhancements to add new or enhanced information technology functionality to IRS systems or Non-Development
Modernization, or Enhancements, e.g., software, hardware, or licenses.
11
   Our review did not include a detailed analysis of the funding process followed for the TASIS Project.
                                                                                                          Page 8
                        Information Technology: Improvements Are Needed to
                       Successfully Plan and Deliver the New Taxpayer Advocate
                                       Service Integrated System



         Management Response: The IRS agreed with this recommendation. The IRS stated
         that it is currently under significant budget constraints and is expecting continuing budget
         constraints in Fiscal Year 2015. Multiyear funding for the TASIS would require the
         Chief Financial Officer, Chief Technology Officer, and National Taxpayer Advocate to
         justify the need for the system against other critical systems requiring funding.
         Consequently, the IT organization will work with the Chief Financial Officer and the
         National Taxpayer Advocate to develop a Release Plan to address a multiyear budget to
         support systems development activities for the TAS with the caveat that if the TASIS is
         not funded, this corrective action will be obsolete.
Recommendation 3: Ensure adherence to applicable risk management processes for
identifying, monitoring, and mitigating TASIS risks in accordance with established IRM
guidelines.
         Management Response: The IRS agreed with this recommendation. The IRS stated
         that the IT organization recently established a new Risk Review Board, which was
         chartered to implement additional process improvements to ensure that all risks are
         identified and clearly articulated with mitigation plans documented and tracked.
         However, because Risk Review Board activities are currently on hold with the funding
         pause, the IRS will revisit this corrective action once the project resumes and ensure that
         the Risk Review Board charter is fully implemented and that the risk management plan is
         updated to reflect the new governance structure.

Critical Roles and Responsibilities Were Not Established or Clearly
Communicated
IRM 2.16.1 requires a project charter for new IRS projects following an ELC path. A project
charter should clearly define key areas of authority and responsibility, and establish appropriate
lines of reporting. Also, IRM 10.8.1 requires a designated authorizing official for each
organizational information system.12 Authorizing officials address a critical role and key
responsibilities to ensure that system security controls are adequate.
However, the TASIS Project did not ensure that key roles and responsibilities were established
or communicated during initial systems development. Specific conditions include:
        A Memorandum of Understanding was finalized after 10 months designating
         responsibility to the TAS organization to provide the Authorizing Official13 for the
         TASIS. However, the authorizing official role was not yet assumed by the TAS at the
         end of our review.

12
  IRM 10.8.1, Information Technology Security Policy and Guidance (Dec. 2013).
13
  The authorizing official has the authority to formally assume responsibility for operating an information system at
an acceptable level of risk.
                                                                                                             Page 9
                        Information Technology: Improvements Are Needed to
                       Successfully Plan and Deliver the New Taxpayer Advocate
                                       Service Integrated System



        The business analyst14 role for the TAS was not established until March 2013.
        Other critical IT organization leadership roles including the TASIS Project Manager and
         Requirements Manager positions experienced high turnover.
Without defined, documented, and approved key roles and responsibilities for the TASIS Project,
important risk mitigation activities were not effective. Further, these conditions were
exasperated because the various IRS stakeholders with key responsibilities and interests for this
new system were not guided through a team approach that was focused on long-term success.

Recommendation
Recommendation 4: The Chief Technology Officer and the National Taxpayer Advocate
should ensure that critical roles and responsibilities are identified and applied to ensure the
long-term success going forward with all new systems development activities for the TAS.
         Management Response: The IRS agreed with this recommendation. The Chief
         Technology Officer will work with the National Taxpayer Advocate to clearly identify
         and document critical roles and responsibilities, which will be applied to the TASIS to
         ensure long-term success for the new systems development activities.

System Requirements Have Not Yet Been Sufficiently Verified to
Ensure That Taxpayer Advocate Service Business Needs Will Be Met
With the Selected Commercial Off-the-Shelf Product
IRM 2.16.1 requires that COTS software products provided under the ELC COTS path satisfy at
least 80 percent of the requirements for a planned IRS system.
At the direction of the IT organization, the TASIS Project transitioned from its initial ELC
Waterfall systems development path to a COTS path in June 2012. Specifically, the Entellitrak
product was selected as the COTS solution for the TASIS following Milestone 2. However, our
review found that system requirements were not sufficiently mapped to the Entellitrak product
functionality to determine whether this COTS solution could meet TASIS requirements as
required by the IRM. We also found that beyond Entellitrak case management functionality
planned for the TASIS, there are more than 200 other case management applications across the
IRS enterprise.15 This approach for developing case management functionality should be
carefully reconsidered to address three important information technology management areas:
1) customer service, 2) system integration and efficiencies, and 3) data integrity and sharing.


14
   The business analyst serves as a liaison among stakeholders to elicit, analyze, communicate, and validate
requirements for changes to business processes, policies, and information systems.
15
   This audit did not include a detailed review of all IRS case management applications.
                                                                                                               Page 10
                     Information Technology: Improvements Are Needed to
                    Successfully Plan and Deliver the New Taxpayer Advocate
                                    Service Integrated System



IT organization officials informed us that the required mapping is considered the contractor’s
responsibility. However, the Entellitrak contractor informed us that because Entellitrak is a
COTS product, it did not map the requirements for the TASIS during the acquisition process. By
not completing this verification process, the IRS has proceeded with the selection and investment
in the Entellitrak product without vital information regarding specific system requirements.
The IRS is currently reevaluating its overall approach for case management applications,
including the TASIS. In March 2014, the TASIS Project, along with other case management
projects, was placed under a funding pause, and reassessment of these development efforts is
underway.16 Further, the TAS has not yet accepted initial deliverables for TASIS Release 1.
Because the IT organization has not yet verified that Entellitrak will adequately support TASIS
Project requirements, uncertainty remains about the viability of the current COTS path approach
for TASIS systems development, and the IRS is unsure that TAS business needs will be met with
this product as planned.

Recommendation
Recommendation 5: The Chief Technology Officer and the National Taxpayer Advocate
should verify Entellitrak functionality or possible alternative solutions for case management to
the TAS’s system requirements to ensure that TAS business needs will be met.
       Management Response: The IRS disagreed with this recommendation. The IRS
       stated that it will continue to conduct requirements elicitation and project management
       processes following applicable ELC methodology.
       Office of Audit Comment: The IRS did not agree with our conclusion that it should
       verify Entellitrak functionality to the TAS’s system requirements to ensure that TAS
       business needs will be met. The IRS’s alternative analysis for the TASIS lists the
       high-level business technical requirements. However, it does not demonstrate that
       Entellitrak will provide an optimal or acceptable solution to meet TAS business needs,
       including integrated case management capabilities and other requirements for the system.
       We believe that the IRS needs to consider a more complete set of system requirements
       for TASIS case management functions to map to Entellitrak as part of its ongoing project
       management processes.




16
  TIGTA, Ref. No. 2014-20-08, The Information Reporting and Document Matching Case Management
System Could Not Be Deployed (Sept. 2014).
                                                                                                Page 11
                    Information Technology: Improvements Are Needed to
                   Successfully Plan and Deliver the New Taxpayer Advocate
                                   Service Integrated System



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS is adequately mitigating
systems development risks for the TASIS Project to achieve business and information
technology goals. To accomplish our objective, we:
I.     Determined if the TAS has implemented key management controls and processes for
       requirements management, change management, and risk management, including
       budgeting and funding to guide systems development for the new TASIS.
       A. Determined TAS roles and responsibilities for the TASIS Project.
       B. Assessed the requirements management processes followed during systems
          development in accordance with applicable guidance.
       C. Determined if the change management processes followed during systems
          development were in accordance with applicable guidance.
II.    Determined if the TASIS Program Management Office has implemented key systems
       development controls within the IRS ELC COTS path methodology for the TASIS
       Project in accordance with Department of the Treasury, IRM, and other applicable
       guidance.
       A. Obtained and reviewed current systems development guidance being applied to
          develop the TASIS.
       B. Assessed the requirements management processes followed during systems
          development in accordance with applicable guidance.
       C. Determined whether the IT organization is adequately managing the risks for the
          change management processes for the TASIS Project.
       D. Determined whether the IT organization is adequately managing risks for the TASIS
          Project.
III.   Determined if the IRS implemented effective oversight activities and Systems
       Development Life Cycle disciplines to manage the systems development processes for
       the TASIS Project.
       A. Determined how the IRS has applied Systems Development Life Cycle disciplines to
          mitigate risks for TASIS systems development.



                                                                                        Page 12
                   Information Technology: Improvements Are Needed to
                  Successfully Plan and Deliver the New Taxpayer Advocate
                                  Service Integrated System



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: IRM, ELC, IT organization,
and TAS policies and procedures related to the systems development of the TASIS. We
evaluated these controls by interviewing IRS management and staff from the Applications
Development, Financial Management Service, Cybersecurity, and IT organizations; reviewing
policies and procedures outlined in the IRM; and reviewing relevant supporting
documentation.




                                                                                        Page 13
                   Information Technology: Improvements Are Needed to
                  Successfully Plan and Deliver the New Taxpayer Advocate
                                  Service Integrated System



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Gwendolyn McGowan, Director
Suzanne Westcott, Audit Manager
Charlene Elliston, Lead Auditor
Andrea Barnes, Senior Auditor
Lynn Ross, Senior Auditor
Rita Woody, Senior Auditor
Hung Dam, Information Technology Specialist




                                                                                      Page 14
                 Information Technology: Improvements Are Needed to
                Successfully Plan and Deliver the New Taxpayer Advocate
                                Service Integrated System



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Financial Officer OS:CFO
Deputy Chief Information Officer for Operations OS:CTO
Executive Director, Business Modernization TA:BM
Director, Privacy, Governmental Liaison, and Disclosure OS:P
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Director, Business Planning and Risk Management OS:CTO:AD:RM
Chief Counsel CC
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Director, Program Management OS:CTO:AD:PM
                 Director, Business Planning and Risk Management OS:CTO:AD:RM




                                                                                Page 15
                       Information Technology: Improvements Are Needed to
                      Successfully Plan and Deliver the New Taxpayer Advocate
                                      Service Integrated System



                                                                                                Appendix IV

       Taxpayer Advocate Service Integrated System
           Development Activities and Timeline

                              TASIS Systems Development Activity                                             Date
    The IRS Executive Board places the TASIS as a priority. The TAS took action to begin               April 2008
    redesigning its existing systems to enable the IRS to more efficiently and effectively
    advocate for taxpayers.
    TASIS development funding was approved.                                                            April 2010
    The TAS initiated a collaborative effort with the IRS IT organization1 to develop a                June 2010
    long-range strategy to modernize and consolidate TAS systems.
    TASIS Release 1.0 actual Milestone2 1 exit.                                                        February 2011
    The Solutions Engineering function completes second Alternative Analysis and                       May 2012
    recommends Entellitrak® as the platform for the TASIS.
    The TASIS Project changed the ELC path from Waterfall to COTS because of new                       June 2012
    technology advances.
    Milestone 3/4a (preliminary/detailed) design combined.                                             June 2012
    TASIS Release 1.0 System Design activities begin.                                                  June 2012
    MicroPact, owner of the Entellitrak COTS package, contract is awarded.                             September 2012
    Kickoff meeting with the IT organization, MicroPact, and the TAS.                                  September 2012
    The National Taxpayer Advocate proposed a conditional deployment date for                          July 2013
    the TASIS of October 1, 2014.
    The TASIS Risk Review Board was chartered.                                                         July 2013
    The TASIS Executive Steering Committee approved the National Taxpayer Advocate’s                   July 2013
    proposed October 2014 go-live date and conditions.
    The CTR was performed that enabled the IRS to establish an action plan for resolving               January 2014
    items identified during the review.



1
  In June 2010, the IRS IT organization was known as the Modernization Information Technology Services
organization.
2
  A milestone is an investment management decision point placed at a natural breakpoint in the life cycle which
allows the project to proceed to the next phase. Milestone 1 is the project initiation phase.
                                                                                                          Page 16
      Information Technology: Improvements Are Needed to
     Successfully Plan and Deliver the New Taxpayer Advocate
                     Service Integrated System



                                                   Appendix V

Management’s Response to the Draft Report




                                                         Page 17
 Information Technology: Improvements Are Needed to
Successfully Plan and Deliver the New Taxpayer Advocate
                Service Integrated System




                                                    Page 18
 Information Technology: Improvements Are Needed to
Successfully Plan and Deliver the New Taxpayer Advocate
                Service Integrated System




                                                    Page 19
 Information Technology: Improvements Are Needed to
Successfully Plan and Deliver the New Taxpayer Advocate
                Service Integrated System




                                                    Page 20
 Information Technology: Improvements Are Needed to
Successfully Plan and Deliver the New Taxpayer Advocate
                Service Integrated System




                                                    Page 21
 Information Technology: Improvements Are Needed to
Successfully Plan and Deliver the New Taxpayer Advocate
                Service Integrated System




                                                    Page 22
 Information Technology: Improvements Are Needed to
Successfully Plan and Deliver the New Taxpayer Advocate
                Service Integrated System




                                                    Page 23
